           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       FIELD OFFICE PROCEDURES
  FOR CHARGING AND COLLECTING FEES

     August 2009    A-04-09-19041




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   August 28, 2009                                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Field Office Procedures for Charging and Collecting Fees (A-04-09-19041)



        OBJECTIVE
        Our objectives were to determine whether (1) Social Security Administration (SSA)
        policies and procedures for charging and collecting fees at field offices were adequate
        and (2) field offices complied with existing guidance.

        BACKGROUND

        SSA provides services to its customers through a network of about 1,300 field offices
        throughout the United States and its territories. Field offices assist individuals who are
        applying for or receiving benefits under SSA’s Old-Age, Survivors and Disability
        Insurance and Supplemental Security Income programs. Field offices also process and
        maintain information related to individuals’ Social Security records. Generally, SSA field
        offices do not charge their customers fees. However, in certain situations, SSA is
        authorized to charge fees for providing information to third parties or individuals.

        The Social Security Act, Freedom of Information Act (FOIA), and Privacy Act of 1974
        (Privacy Act) provide the public the right to request information about themselves and
        the Government. 1 These laws, as well as SSA regulations, provide the Agency the
        authority to charge fees for certain information requests. 2 Generally, the regulations
        allow SSA to recover its costs for searching, copying, and certifying information in its
        system of records. The fees compensate SSA for its work, so the Social Security trust
        funds do not bear the costs of such activities.

        In Fiscal Year (FY) 2007, SSA’s field offices collected 68,934 fee remittances totaling
        about $2.9 million. As shown in the following table, 262 (20 percent) of the 1,312 field


        1
            The Social Security Act § 1106, 42 U.S.C. § 1306, 5 U.S.C. § 552, and 5 U.S.C. § 552a, respectively.
        2
            The Social Security Act § 1106(c), 42 U.S.C. § 1306(c), 20 C.F.R. §§ 401.95 and 402.165.
Page 2 - The Commissioner

offices did not collect fees in FY 2007. 3 Other field offices collected very few fees.
However, such factors as the field office size, location, and area demographics affect
the number of information requests each office receives.

               Table 1: FY 2007 Fees Collected by SSA Regional Offices
                                                            Percent of
               Number of
                              Number of         Total          Field
                  Field
                                 Field          Field         Offices       Number of      Amount of
     SSA         Offices
                              Offices that     Offices       that Did         Fees           Fees
    Region      that Did
                               Collected       Open in          Not         Collected      Collected
               Not Collect
                                  Fees         FY 2007        Collect
                  Fees
                                                               Fees
Boston                   26              46            72             36          1,451       $ 73,534
New York                 16             111           127             13         16,881        568,535
Philadelphia             60              83           143             42          2,996        219,568
Atlanta                  55             201           256             21          9,161        501,823
Chicago                  22             202           224             10         11,533        492,757
Dallas                   35             108           143             24          4,052        169,153
Kansas City               5              72            77              6          3,335        166,148
Denver                   19              34            53             36            669         29,794
San
                         21             143           164             13         17,514         611,104
Francisco
Seattle                   3               50           53               6         1,342          70,301
    Totals             262            1,050        1,312              20        68,934     $2,902,717

To accomplish our objectives, we distributed a questionnaire to each of SSA’s
10 Regional Commissioners. In the questionnaire, we asked each Regional
Commissioner to provide responses to a set of general questions on how regional
managers monitored field office fee collections. Additionally, we posed questions
specific to certain field offices in each region. We also visited 12 field offices from the
Atlanta, Philadelphia, and New York Regions. In these field offices, we interviewed
managers and staff to gain an understanding of how field offices charged and collected
fees for information requests. We selected these field offices based on noted trends in
fee collections (that is, either high or low fee collections) and in some cases, information
we obtained about the offices from questionnaire responses. Additional information
about our scope and methodology is in Appendix B.

RESULTS OF REVIEW
SSA policies and procedures governing field office collection of fees for information
requests could be improved. Current policies, procedures, and field office practices do
not ensure the consistent determination and collection of fees. For example, in
response to our questionnaire, several regional offices acknowledged that some of their

3
 In FY 2007, SSA closed or consolidated several field offices. As such, SSA had 1,312 field offices open
at some point in FY 2007.
Page 3 - The Commissioner

field offices did not collect fees when they should have. Other offices developed their
own practices for fee collection, which conflicted with SSA policy. Specifically, some
field offices developed and charged standard rates for responding to certain information
requests, even though SSA policy requires that the offices compute a fee based on
such factors as staff time, salary, and overhead costs. SSA Regional Commissioners
cited several reasons why field offices did not charge fees or did not consistently follow
policy. Some of those reasons were as follows.

     Field office management and staff were unaware of the policy to charge fees.
     Staff was uncertain when fees should be charged.
     The fee calculation was too complex.
     The fee policy was cumbersome and confusing.

By law, SSA has discretion in deciding whether it will charge fees for certain information
requests. 4 That is, although the laws allow SSA to recover the costs for providing these
services, they do not require that it do so. However, if the Agency decides to charge
fees—to return the cost of providing these services to the Social Security trust funds—
we believe SSA should consider recovering the full cost of these services, including the
cost to collect and remit the charges. Had SSA charged the full cost to process field
office remittances in FY 2007, it would have recovered about $205,000 more for the
trust funds. We also believe SSA should simplify the policy and process for field office
fee collections, including developing (1) a standard fee schedule, where legally
permissible, for commonly received information requests and (2) an automated system
to track, process, and calculate fees.

SSA also lacked (1) management controls to monitor field offices’ compliance with
governing policies and (2) management information, such as the number of information
requests received, processed, billed, and collected, which would assist SSA in
identifying any unusual or anomalous trends. All 10 Regional Commissioners
responded that their regions did not have information to determine the number of field
office information requests received, whether proper consent to release information was
obtained, or whether fees were charged and collected. We believe such information is
critical to ensure field offices comply with SSA policy and proper fees are returned to the
Social Security trust funds.

FIELD OFFICES DID NOT CONSISTENTLY CHARGE AND COLLECT FEES

Field offices did not always comply with SSA policies and procedures, which require the
collection of fees for certain information requests. 5 While we acknowledge that some
field offices may have had few or no information requests in FY 2007, our questionnaire
and field office visits determined that some field offices did not charge fees when SSA
policy required that they do so. Moreover, some field offices established practices that

4
    The Social Security Act § 1106(c), 42 U.S.C. § 1306(c).
5
    SSA, Program Operations Manual System (POMS) GN 03311.005.E.1.
Page 4 - The Commissioner

were contrary to SSA policy. One region also noted that a field office charged fees for
information requests, but did not process the collections correctly.

Two Regional Commissioners acknowledged that certain field offices were not aware of
the policy to collect fees. As such, staff provided information to requestors at no
charge. Three other Regional Commissioners responded that field offices frequently
cited confusion about the fee process as the reason they did not collect fees. Moreover,
staff from all 12 field offices we visited in the Atlanta, New York, and Philadelphia
Regions stated that the policies were too complex, confusing, and cumbersome. Staff
at these field offices specifically cited difficulties determining whether an information
request was program-related—which is a critical component in deciding whether a fee
should be charged. Additionally, field office staff with whom we spoke stated that
determining whether the FOIA or Privacy Act rules apply to information requests caused
confusion and may have resulted in noncompliance with SSA’s policies.

The following examples illustrate field office (1) uncertainty when interpreting SSA policy
and (2) noncompliance with established guidelines.

No Fee Collections

     SSA policy states that the Agency will provide an individual one free copy of their
      own record when they request the record for a program purpose. 6 However, SSA
      has no requirement or reliable method to determine whether the individual previously
      obtained a copy of his or her record for a program purpose. Therefore, SSA has
      limited means to implement this policy. Unless an individual requests multiple
      copies of the same documents, from the same office, and—depending on the
      recordkeeping practices of the field office—in a relatively close time span, field
      offices may always deem individual program-related information requests as free.

     Although SSA’s FOIA and Privacy Act fee schedules do not address a specific fee
      for copying electronic disability folder information to a compact disc, SSA
      implemented a separate policy 7 that the fee to provide the compact disc is $10.
      However, the claimant is entitled to one free copy of the file for program purposes.
      Additionally, the fee is only charged if the total cost of duplication is over $25. The
      policy does not explicitly state that field offices should add fees for time spent
      reviewing a case folder to ensure copied information complied with SSA’s access
      and disclosure policies. Therefore, some offices interpreted the policy to mean that
      if they only provided one compact disc ($10) for either a program or non-program
      purpose, the requests would always be free—as the $10 charge was less than the
      $25 minimum.




6
    SSA, POMS GN 03311.005.B.1.
7
    SSA, POMS DI 81001.035.E.1.
Page 5 - The Commissioner

Standardized Fees Not Based on Workload Analysis

   One office charged a $35 duplication fee for folder information requests (for both
    photocopies of paper folders and compact discs of electronic folders). The field
    office established this standard fee for one customer, who made most of the
    information requests that office received. Another field office charged its most
    frequent information requestor a standard fee of $200 to copy paper and electronic
    folders. However, for similar information requests, the office charged other
    customers in accordance with SSA policy—calculating the charges based on the
    prescribed fee schedule. None of these field office managers were able to provide
    support for the amounts charged by their offices. Rather, they stated the standard
    fees had been a long-time practice.

   Beginning in March 2009, one field office manager decided to charge a $10 fee for
    benefit verifications. Before that time, the office did not charge for this information.
    However, upon learning that one field office in the region charged $2, and another
    charged $16 for the same information, the field office manager decided to charge the
    $10 fee. Other offices in this region did not charge for this information at all. The
    Regional Commissioner’s response to our questionnaire explained that field offices
    did not always collect fees for information because policy stated that fees should not
    be charged when processing costs are determined to be $7.50 or less. As such,
    some field offices believed their cost of providing the benefit verification did not
    exceed $7.50; therefore, no fee was charged.

Improper Processing of Field Office Collections

   One field office did not have FY 2007 fee collections reported in SSA’s Debt
    Management System, an automated system field offices used to record fee
    information. Field office management explained that although the field office
    collected fees, it did not follow policy and procedures to process fee collections.
    Specifically, staff did not process the remittances through the Debt Management
    System, but instead manually logged receipt of the payments, and sent the
    remittances directly to the Office of Finance.

IMPROVEMENTS ARE NEEDED IN SSA POLICIES AND PRACTICES FOR FIELD
OFFICE FEE COLLECTIONS

As acknowledged by most of the SSA representatives from whom we obtained
information, improvements are needed to simplify and clarify the policies for field office
fee collections. To minimize the cost to SSA’s trust funds for providing information in
accordance with governing laws and regulations, we believe SSA should consider
(1) updating and clarifying the Agency’s policies; (2) updating the fee schedules and
standardizing some fees; (3) developing an automated system that would better guide
field office employees in determining whether a fee should be collected and, if so, how
much the fee should be; and (4) providing needed information to SSA managers in
Page 6 - The Commissioner

charge of this responsibility, so they may better monitor field office compliance. Once
these actions are taken, we believe SSA should also provide additional training to field
office staff regarding fee collections.

SSA POLICY SHOULD BE UPDATED AND CLARIFIED

As discussed previously, SSA field office and regional representatives from whom we
obtained information stated the policies governing field offices’ collection of fees were
difficult to interpret and needed to be simplified and updated. Some of the field office
representatives suggested that the policy should contain a “decision tree,” to walk the
staff through the process of determining whether a fee should be charged and, if so,
how much. While not all-inclusive, the following bullets highlight policy areas that
should be clarified, as illustrated by the examples in the previous report section.

     Program versus non-program purposes for information requests.

     When the FOIA or Privacy Act fee schedule should be applied.

     How to determine whether an individual has previously received the same
      program-related information and therefore should be charged for an information
      request.

     Whether the fee for copying electronic folder information should include staff time for
      reviewing the folder.

Also, given the complexity of the policy and the problems staff encountered in
consistently applying it, we believe a field office training program would improve the
overall fee collection process. Only 6 of the 10 Regional Commissioners responded
that their field offices were provided training on how to charge fees for information
requests. Further, only 5 of the 10 Regional Commissioners responded that their
regions issued specific guidance to field offices on how to process information requests.

STANDARDIZED FEES SHOULD BE CONSIDERED

SSA representatives believed the process for charging fees would be easier if a
standard fee schedule could be applied to commonly received requests. FOIA 8 and the
Privacy Act 9 provide the framework to charge fees related to information requests.
Likewise, section 1106 of the Social Security Act authorizes SSA’s Commissioner to




8
    5 U.S.C. § 552(a)(4)(A).
9
    5 U.S.C. § 552a(f)(5).
Page 7 - The Commissioner

charge the full cost of processing information requests. 10 Full costs include employee
wages, benefits, overhead costs, and administrative costs. However, most SSA
representatives with whom we spoke stated the process was cumbersome and
complex.

For example, to calculate a fee, staff must first determine whether a fee should be
charged. If a fee applies, staff must then calculate the fee. To do so, staff must have
detailed time records for each employee who worked on the request and their
respective hourly pay rate(s). If paper copies of records are involved, they must also
inventory the number of pages copied. Then, the total cost of time for assigned staff
must be computed and overhead costs must be added along with the costs for any
copying and shipping. Finally, it must be determined whether the fee meets the
minimum threshold. Field offices either calculate the fee manually, using an electronic
spreadsheet, or with a calculator found on SSA’s Intranet.

Some fees for information requests are already standardized. We acknowledge the
intent of SSA’s policy is to ensure Social Security trust funds recover the full cost of
each information request. However, we believe establishing standardized fees for some
common requests would simplify the fee process and improve overall compliance with
policy. Also, if standard fees were based on workload studies, we believe SSA would
generally recover the full cost of these services.

SCHEDULES USED FOR CALCULATING FEES NEED TO BE UPDATED

Regardless of whether SSA decides to standardize fees for certain information
requests, we believe the Agency should update the costs it uses to calculate fees. SSA
representatives with whom we spoke acknowledged that some fees charged had been
SSA policy for so long they could provide no information as to how they were
established (for example, fees for detailed earnings queries requested for non-program
purposes). Additionally, they agreed that, if SSA wanted to capture the full cost of an
information request, the cost to process the fee remittance should be evaluated. The
following sections provide further information on some of the costs SSA should consider
when it updates its fee schedules.

Overhead Rates

SSA adds 110 percent to the cost of most information requests to account for
administrative overhead, such as facilities and utilities. For example, an information
request with a $100 base cost, with 110 percent added to it for overhead costs, would
have a total cost of $210 [$100 + ($100 x 110 percent)]. However, SSA could not
provide a cost analysis indicating that 110 percent was reasonable. SSA

10
  Social Security Act § 1106(c), 42 U.S.C. § 1306(c); See also 20 C.F.R. § 402.175(a) – “Section 1106(c)
of the Social Security Act permits the Commissioner to require requesters of information to pay the full
cost of supplying the information where the information is requested to comply with the Employee
Retirement Income Security Act, or for any other purpose not directly related to the administration of the
program or programs under the Social Security Act.”
Page 8 - The Commissioner

representatives with whom we spoke stated that, each year, the Agency reevaluates the
overhead rate to ensure it accurately reflects SSA’s costs. Under the current process,
changing the overhead rate charged for information requests each year might lead to
further confusion among field office staff. However, if an average overhead rate were
incorporated into standardized fees, SSA could still return the average cost of these
services to the SSA trust funds—and simplify the calculation for field office staff.

Charges for Detailed Earnings Queries for Non-program Purposes

SSA policy directs staff to charge individuals requesting detailed earnings queries for
non-program purposes at escalating rates depending on the number of years of
earnings information provided. 11 For example, for a detailed report showing 1 year of
an individual’s earnings (for a non-program purpose), the fee would be $15.00. Fees for
additional years are charged on a sliding scale—starting at $2.50 and sliding down to
$1.25 (for the first 40 years). The fee for each year after 40 years is $1.00. SSA
charges an additional $15 fee to certify the report.

SSA representatives with whom we spoke could not provide the rationale for this
formula or state whether it captured the full cost of processing these requests. In fact,
field office personnel with whom we spoke stated they were required to use the same
amount of key strokes when processing a detailed earnings query for 2 years or
40 years—albeit, more paper for the latter report. Accordingly, we believe SSA should
determine whether the charges for these reports capture the full cost of performing the
service—in today’s automated environment—and update the fees as appropriate.

Hourly Employee Rates Included in FOIA Fees

FOIA provides three categories of billing rates based on the grade level of the employee
performing the work. These billing rates range from $15 to $56. However, SSA policy
instructs that only $10 per hour be charged for these services, regardless of employee
grade level. 12 As such, the full cost to provide FOIA-related information is not
recovered. Table 2 compares FOIA hourly rates to SSA hourly rates for FOIA requests.

                Table 2: FOIA Hourly Rates Compared to SSA Hourly Rates
                                                                 FOIA    SSA       Costs Not
     FOIA Employee Grade Level Categories
                                                                 Rate    Rate      Recovered
     GS-5 Step 7 (for services provided by GS-1 thru GS-8)        $15     $10           $5
     GS-12 Step 4 (for services provided by GS-9 thru GS-14)      $31     $10          $21
     GS-15 Step 7 (for services provided by GS-15 or above)       $56     $10          $46




11
     SSA, POMS GN 03311.005.F.3.b and RM 01498.027.
12
     SSA, POMS GN 03311.005.C.2 (Privacy Act and FOIA Fees – FOIA Fee Schedule).
Page 9 - The Commissioner

While the choice to charge lower hourly rates for FOIA information requests rests with
SSA, if the purpose of these fees is to recover the full cost for SSA trust funds, the
Agency may want to reconsider this decision.

Recovering the Cost of Processing Remittances

For information requests that require a fee, SSA does not always recover the cost of
processing the related remittance (payment). SSA’s policy does not require the cost of
processing a remittance to be collected on all requests. Additionally, according to SSA
representatives, its 110 percent overhead rate does not include this cost. As a result,
SSA may not be recovering the full cost of these services for the trust funds.

For one type of information request, SSA charges a standard fee, which includes the
cost of processing the remittance. Specifically, the Agency charges third parties $46 for
a non-program-related Social Security Number Printout request. This fee consists of a
$20 fee to provide the printout, and a $26 fee to cover the costs associated with
processing the remittance. SSA representatives could not provide a study to support
the $26 cost of processing a remittance for this specific document.

In contrast, SSA policy states that unless the total cost of a FOIA request exceeds
$7.50, the field offices should not charge for the service. 13 Such guidance infers that it
costs the Agency at least $7.50 to process the remittance. However, the $7.50 fee is
not consistent with the $26 fee charged to recover the cost of processing remittances
for Social Security Number Printout requests. SSA could not provide a study to support
the $7.50 cost for processing a fee remittance either. Representatives from the Office
of Operations stated that the $7.50 figure was probably too low given the time required
to process the remittance, and the salaries of the employees processing the work.

SSA field offices processed 68,934 fee remittances in FY 2007, totaling $2,902,717. If
in FY 2007, SSA’s policies were to (1) recover $26 for processing remittances, and
(2) not charge fees for information services costing $26 or less, the amount of fees
collected would have increased by about $205,000, while SSA field offices would have
processed about 31,000 fewer remittances. Table 3 details the change in the number of
fee remittances and the amount of FY 2007 fees—assuming a $26 minimum fee.




13
     SSA, POMS GN 03311.005.C.3.a (Privacy Act and FOIA Fees – Policy of Fees).
Page 10 - The Commissioner

           Table 3: Change in FY 2007 Fees—Assuming a $26 Minimum Fee
                                                          Assuming $26             Estimated Change in
                           FY 2007 Actual Fees
                                                           Minimum Fee                 FY 2007 Fees
     Dollar Range         Number         Amount       Number     Amount            Number     Amount
       of Fees            of Fees        of Fees      of Fees    Of Fees           of Fees    of Fees
        $26 and less        31,083       $582,158           0            $0        (31,083) $(582,158)
          $26.01 and
                             37,851    $2,320,559       37,851    $3,107,865 14           0       787,306
             greater
              Totals         68,934    $2,902,717       37,851      $3,107,865     (31,083)     $205,148

A key element to SSA’s compliance with the full cost-recovery provisions of FOIA, the
Privacy Act, and the Social Security Act is reliable cost data. We believe SSA would
better comply with the full cost provision if it performed a current study to determine
average field office costs for processing fee remittances. Additionally, based on the
results of the study, SSA should determine whether its policies need to be revised to
establish a minimum fee for processing information and other requests.

DEVELOPMENT OF AN AUTOMATED SYSTEM FOR FIELD OFFICE FEE
COLLECTIONS

Currently, SSA does not have an automated system to assist field office staff and
managers with processing and managing the information request workload. Before our
review, SSA had gathered user requirements to develop an automated system to assist
field offices with the process of tracking and responding to non-program information
requests as well as charging and collecting the related fees. Specifically, the new
system, Administrative Collection Remittance System (ACRS), would create a record of
information requests received, generate a tracking number, and automatically calculate
a fee based on information input by the user. It would then generate an invoice and
allow the requestor to pay the fee via the Internet. However, because SSA resources
are limited for the development of automated solutions, it must prioritize system
requests.

Unfortunately, ACRS was not given a high priority and was not selected for
development and implementation in recent years. We understand the challenges SSA
faces in meeting the significant systems requests it receives. However, to the extent
possible, we encourage the Agency to keep this systems proposal under consideration.
Although we have no means to quantify uncollected fees, we believe automation and
simplification of the fee process will improve compliance with SSA policies and
ultimately increase the amount of funds returned to the trust fund.

14
   SSA’s procedures for tracking the collection of field office fees do not identify the specific type of fee
collected. However, SSA estimated that about 10 percent of the FY 2007 fee remittances over $26 were
for Social Security Number Printouts, which included a $26 remittance processing fee. We relied on the
Agency’s estimate and reduced the amount of fees collected that are presented in this chart—for
transactions greater than $26—by 10 percent. As such, our estimated increase in fee collections
excludes $196,820 in fees related to processing Social Security Number Printout remittances. The
estimated increase in fee collections prior to excluding fees related to printouts was $984,126 (37,851 X
$26). Therefore, the net increase in fees collected over $26 is $787,306.
Page 11 - The Commissioner

We believe the DISCLOSE system, developed by the SSA Kentucky Area Director’s
Office, might serve as an example of an automated solution that may be expanded to
improve fee collections. The Kentucky Area Director’s Office developed and
implemented DISCLOSE in July 2007. DISCLOSE automated the process of
determining whether a fee applies, calculating a fee, creating a bill, and monitoring
collection efforts. One of DISCLOSE’s key features is a series of drop-down menus that
guide the user through the process of determining whether to charge a fee.
Management in the Kentucky Area Director’s Office stated that this feature was
beneficial to field office staff as it simplified the process of deciding when a fee should
be charged.

DISCLOSE also provides management information, such as the number and amount of
fees billed and collected, as well as those that have not been collected. They believe
DISCLOSE has been successful, as fee collections have increased since its
implementation.

The Atlanta Regional Office (ARO) had planned to implement DISCLOSE region-wide.
However, the DISCLOSE computer software would not support region-wide use of the
system. As a result, ARO directed the development of a system called FEEBAY that
can be used by all field offices in the region. When completed, this system will have
features similar to DISCLOSE. The North Carolina Area Director’s Office (in the Atlanta
Region) is piloting FEEBAY. If the pilot proves successful, other SSA regional offices
may want to consider adopting this technology.

SSA LACKED CONTROLS TO MONITOR INFORMATION REQUESTS AND
RELATED FEES

SSA’s regional offices lacked management controls needed to identify the number of
field office information requests received and processed, whether the proper consent to
release information was obtained, and whether fees were properly billed and collected.
All 10 Regional Commissioners responded that their regions did not have information as
to how many requests each field office received, how the requests were handled, and
how much in fees were charged and collected. Further, most of the managers at the
field offices we visited or contacted were not aware of the number of information
requests their offices received or the amount of fees collected.

Reliable and useful information is critical to SSA managers’ ability to monitor the
effectiveness of the information request and fee process. We believe implementation of
automated systems, such as ACRS, DISCLOSE and FEEBAY could provide managers
with useful information needed to assess the fee process.
Page 12 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
We understand that not all field offices will receive information requests, and fees for
similar services will vary from office to office. Further, we recognize that SSA has taken
actions to implement the full cost provisions provided for in FOIA, the Privacy Act and
the Social Security Act. However, SSA policies and procedures for charging and
collecting fees could be improved.

Not all field offices charged fees for processing information requests when they should
have. Some field offices charged different fees for the same type of information, while
other offices charged various standard fees not contained in SSA policy. SSA
managers and staff attributed the inconsistencies in the fee process to the complex,
confusing, and cumbersome fee policy.

Additionally, SSA should update its fee schedules for information requests to capture
the full cost to SSA’s trust funds for providing these services. Finally, SSA did not have
controls in place to allow managers to monitor this workload. SSA’s regional offices did
not have data regarding the number of information requests received by its field offices,
whether the proper consent to release information was obtained, and whether fees were
properly billed and collected. Accordingly, to ensure that SSA field offices charge the
correct fee for all applicable information requests, we recommend SSA:

1. Clarify and simplify governing policies and procedures for field office calculation and
   collection of fees for information requests.

2. Develop a standard fee schedule, where legally permissible, for commonly received
   information requests. These fees should be based on current workload studies to
   ensure SSA recovers the full cost of processing information requests, including the
   cost to process the resulting remittance.

3. For non-standardized fees, determine whether the full cost of processing information
   requests is being recovered (for example, are remittance costs and an accurate
   overhead rate being applied) and update the fee calculation as needed.

4. Establish a current and consistent minimum fee threshold, where legally permissible,
   for processing information requests and incorporate this into SSA policy.

5. Continue to pursue the development and implementation of ACRS. As a possible
   interim alternative, if the pilot is successful, SSA should consider expanded use of
   FEEBAY.

6. Ensure managers have useful and reliable information to determine how effective
   field offices are performing in the overall process of responding to information
   requests and charging and collecting fees.
Page 13 - The Commissioner

7. Develop a program to train field office staff on fee collections for information
   requests.

AGENCY COMMENTS
SSA agreed with all our recommendations. See Appendix C for the full text of SSA’s
comments.



                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
ACRS          Administrative Collection Remittance System
ARO           Atlanta Regional Office
C.F.R.        Code of Federal Regulations
FOIA          Freedom of Information Act
FY            Fiscal Year
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Privacy Act   Privacy Act of 1974
SSA           Social Security Administration
U.S.C.        United States Code
                                                                        Appendix B

Scope and Methodology
To accomplish our objectives, we distributed a questionnaire to each of the Social
Security Administration’s (SSA) 10 Regional Commissioners. In the questionnaire, we
asked each Regional Commissioner to provide responses to a set of general questions
on how regional managers monitored field office fee collections. Additionally, we posed
questions specific to certain field offices in each region. We also visited 12 field offices
from the Atlanta, Philadelphia, and New York Regions. In these field offices, we
interviewed managers and staff to gain an understanding of how field offices charge and
collect fees for information requests. We selected these field offices based on noted
trends in fee collections (that is, either high or low fee collections) and in some cases,
information we obtained about the offices from questionnaire responses.

We also obtained field office fee data from SSA’s Debt Management System for the
period October 1, 2006 through September 30, 2007.

Additionally, we:

   Reviewed applicable sections of the Social Security Act, Freedom of Information Act
    and Privacy Act of 1974, as well as SSA’s regulations, policies, and procedures.

   Compared SSA policies and procedures to applicable Federal laws and regulations.

   Interviewed representatives from SSA’s Office of Privacy and Disclosure to gain an
    understanding of how the Agency’s regulations and policies for charging fees are
    correlated to the Freedom of Information Act, Privacy Act of 1974, and Social
    Security Act.

   Obtained fee information from SSA’s Offices of the Deputy Commissioner for
    Operations and the Deputy Commissioner for Budget, Finance and Management.

   Interviewed SSA personnel in the Atlanta Regional and Kentucky Area Director’s
    Offices to gain an understanding of the DISCLOSE and FEEBAY systems.

   Communicated with representatives from the Office of the Deputy Commissioner for
    Systems to gain an understanding of the Automated Collection and Remittance
    System.




                                            B-1
We conducted field work from December 2008 through April 2009 in the Atlanta,
Philadelphia, and New York Regions. We relied on data extracted from SSA’s Debt
Management System. We determined the data were sufficiently reliable for our audit
objectives. Our tests of internal controls were limited to gaining an understanding of the
laws, regulations, and SSA’s policies and procedures on how SSA’s field offices collect
fees for processing information requests.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                           B-2
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      August 14, 2009                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Field Office Procedures for Charging and
           Collecting Fees” (A-04-09-19041)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“FIELD OFFICE PROCEDURES FOR CHARGING AND COLLECTING FEES”
(A-04-09-19041)

Our responses to your specific recommendations are as follows.

Recommendation 1

Clarify and simplify governing policies and procedures for FO calculation and collection of fees
for information requests.

Comment

We agree. We have established an executive-level workgroup to develop a comprehensive,
legally permissible, and cost-effective approach to collect administrative fees.

Recommendation 2

Develop a standard fee schedule, where legally permissible, for commonly received information
requests. These fees should be based on current workload studies to ensure SSA recovers the
full cost of processing information requests, including the cost to process the resulting
remittance.

Comment

We agree. Please see the response to recommendation 1.

Recommendation 3

For non-standardized fees, determine whether the full cost of processing information requests is
being recovered (for example, are remittance costs and an accurate overhead rate being applied)
and update the fee calculation as needed.

Comment

We agree. Please see the response to recommendation 1.

Recommendation 4

Establish a current and consistent minimum fee threshold, where legally permissible, for
processing information request and incorporate this into SSA policy.

Comment

We agree. Please see the response to recommendation 1.



                                              C-2
Recommendation 5

Continue to pursue the development and implementation of the Administrative Collection
Remittance System (ACRS). As a possible interim alternative, if the pilot is successful, SSA
should consider expanded use of FEEBAY.

Comment

We agree. We recently received funding approval for ACRS and are moving forward with the
project. Additionally, we continue to investigate the feasibility of the FEEBAY project.

Recommendation 6

Ensure managers have useful and reliable information to determine how effective FOs are
performing in the overall process of responding to information requests and charging and
collecting fees.

Comment

We agree. Please see the response to recommendation 1.

Recommendation 7

Develop a program to train FO staff on fee collections for information requests.

Comment

We agree. Please see the response to recommendation 1.




                                              C-3
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Atlanta Audit Division

   Frank Nagy, Audit Manager

Acknowledgments

In addition to those named above:

   Luis A. Ramírez, Auditor

   Charles Lober, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-04-09-19041.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
